                          Review of Non-Tax Delinquent Debt
                          at the U.S. Department of Education




               MANAGEMENT INFORMATION REPORT




                                          ED-OIG/A17-90001
                                           September 1999




Our mission is to promote the efficient                      U.S. Department of Education
and effective use of taxpayer dollars                        Office of Inspector General
in support of American education                             Washington, DC
                              NOTICE
 Statements that management practices need improvement, as well as other
conclusions and recommendations in this report, represent the opinions of the
Office of Inspector General. This report may be released to members of the
      press and general public under the Freedom of Information Act.
Review of Non-Tax Delinquent Debt
 at the U.S. Department of Education                                                                               ED-OIG/A17-90001




                                TABLE OF CONTENTS

TABLE OF CONTENTS



OVERVIEW ................................................................................................................................. 1

BACKGROUND........................................................................................................................... 2

OBJECTIVES, SCOPE AND METHODOLOGY...................................................................... 4

REVIEW RESULTS..................................................................................................................... 6
   DEBT MANAGEMENT ACTIVITIES ....................................................................................................6

   DOCUMENTING AND CLASSIFYING DELINQUENT DEBT ................................................................... 10

   ACCOUNTS RECEIVABLE .............................................................................................................. 11
   Existence of Accounts Receivable, Collectibility, and Revenue Recognition
ED'S REPLY............................................................................................................................... 13

OIG RESPONSE ........................................................................................................................ 13



APPENDICES
   APPENDIX 1          DEBT COLLECTION SERVICE ................................................................................... 14


   APPENDIX 2          NON-TAX RECEIVABLES, DELINQUENCIES, COLLECTIONS, AND............................... 16
                       WRITE-OFFS BY PROGRAM FOR FISCAL YEAR ENDING SEPTEMBER 30, 1998


   APPENDIX 3          NON-TAX DELINQUENT DEBT BY PROGRAM FOR FISCAL YEAR ENDING                                    ...................... 17
                       SEPTEMBER 30,         1998

   APPENDIX 4          LIST OF ACRONYMS ............................................................................................... 18


    APPENDIX 5          ED'S REPLY TO DRAFT REPORT ............................................................................... 19




                                                                 Page i
Review of Non-Tax Delinquent Debt
 at the U.S. Department of Education                                                   ED-OIG/A17-90001




                                       OVERVIEW
The U.S. Department of Education (ED)/Office of Inspector General conducted a review of ED's
compliance with the Debt Collection Improvement Act of 1996 (DCIA). The review is part of a
President's Council on Integrity and Efficiency (PCIE) government-wide review of non-tax delinquent
debt.

The objectives of the PCIE review were to determine the amount of non-tax delinquent debt (existence),
to assess the collectibility of the non-tax delinquent debt (valuation), and to assess debt management
activities (portfolio management).

Our review focused primarily on student financial assistance loans and the Debt Collection Service
(DCS), a service area within ED 's Office of Student Financial Assistance Programs. In addition to
DCS, there are three other service organizations that are responsible for collecting ED's delinquent debt:
guaranty agencies, a direct loan servicer, and the Office of the Chief Financial Officer.

ED functions as a debt collection center to service its own student financial assistance loan debt. ED's
authority to function as a debt collection center was granted by the U.S. Department of Treasury
(Treasury), for a three-year period to be reevaluated upon expiration in the year 2001.

Our review disclosed that ED has worked diligently in meeting the intent of the DCIA which is to
maximize collections of delinquent debts owed to the Federal government, and reduce losses arising
from inadequate debt management activities.

ED uses a wide variety of collection tools to collect on its own non-tax delinquent debt. Delinquent
debt collected by effort and tracked through DCS's Debt Collection Management System for Fiscal Year
1998 totaled $713,398,260. Of the total amount collected for Fiscal Year 1998 in-house collection
efforts accounted for $451,820,542 while collection agencies efforts accounted for $261,577,718. For
Fiscal Year 1998, the Federal Family Education Loan Program (FFELP) loan payments from borrowers
paid on defaulted loans at the guaranty agencies and on U.S. Department of Treasury/Internal Revenue
Service offsets that are guaranty agency held loans totaled $1.4 billion. Of all the collection tools
employed the Treasury Offset Program resulted in the most dollars collected.

For Fiscal Year 1998, ED reported non-tax delinquencies totaling $28.3 billion. In the Student Financial
Assistance Loan Programs a loan is considered to be delinquent one day after a payment has been
missed and default typically starts after 180 days of delinquency. Loans made through FFELP and the
William D. Ford Federal Direct Loan Program accounted for $27.4 billion or 97 percent of ED's total
reported non-tax delinquencies.

This review did not address the objectives on the existence and valuation of the non-tax delinquent debt.
To accomplish the objective of determining the amount of non-tax delinquent debt (existence)


                                                 Page 1
Review of Non-Tax Delinquent Debt
 at the U.S. Department of Education                                                  ED-OIG/A17-90001


and the objective of assessing the collectibility of the non-tax delinquent debt (valuation) we planned
to rely on audit work performed by external auditors conducting the Fiscal Year 1998 Financial
Statement Audit. However, the preparation and audit of the Fiscal Year 1998 Financial Statements is
not complete. Upon completion of the financial audit and issuance of the final audit report, we will
provide a copy to Treasury.



                                       BACKGROUND
At the end of Fiscal Year 1998, the Federal government reported approximately $60 billion in delinquent
non-tax receivables and guaranteed loans. The U.S. Department of Education (ED) accounted for
roughly $28 billion, or 47 percent, of the $60 billion in non-tax delinquent debt. Previous concern over
the non-tax delinquent debt prompted Congress to enact the Debt Collection Improvement Act of 1996
(DCIA).

Signed by President Clinton on April 26, 1996, as part of the budget reconciliation bill, the DCIA
(Public Law 104-134, Chapter 10) became effective and amended the debt collection authority granted
by the Debt Collection Act of 1982. The purpose of the DCIA is to:

          8maximize collection of delinquent debt owed to the Government;
          8consolidate debt collection functions to minimize costs;
          8ensure that debtors are provided appropriate due process rights;
          8improve government credit management to minimize delinquency rates;
          8ensure that the public is fully informed of the Government's debt collection policies and
              that debtors are cognizant of their financial obligations;
          8utilize services of private collection agencies, when appropriate; and
          8encourage agencies to sell delinquent debt under certain circumstances.

Overall implementation authority for DCIA was assigned to the U.S. Department of the Treasury
(Treasury). Treasury delegated DCIA implementation authority to its Financial Management Service
(FMS) which established the Debt Management Service to develop and manage the debt recovery. The
DCIA specifically mandates that Federal agencies, with certain exceptions, transfer non-tax debt over
180 days delinquent to Treasury for collection. The DCIA refers to "non-tax debt" as any debt or claim
that is not under the Internal Revenue Code of 1986. According to DCIA a debt is delinquent if it has
not been paid by the payment date or by the end of any grace period contractually provided. The date
of delinquency is the payment due date for an installment payment and the date of mailing of notice for
an administrative debt. The date of delinquency starts the clock for the 180-day period stipulated in the
DCIA.

The DCIA authorizes two key tools for collection of referred delinquent debt: government-wide cross-
servicing and centralized administrative offset. Under the Treasury Cross-Servicing Program, FMS


                                                 Page 2
Review of Non-Tax Delinquent Debt
 at the U.S. Department of Education                                                              ED-OIG/A17-90001


uses a variety of collection tools and strategies, such as collection agencies, demand letters, and
negotiated repayment agreements to collect non-tax delinquent debt. The centralized administrative
offset program known as the Treasury Offset Program (and formerly known as the Federal Tax Refund
Offset Program and the Federal Offset Program) matches Federal payments against debts owed to the
Government. When a match occurs, the payment is offset up to the amount of debt.

Similarly, the DCIA requires Federal agencies to aggressively pursue the collection of debt once it
becomes delinquent. In this regard, Federal agencies may employ collection tools such as demand
letters, negotiated repayment agreements, wage garnishment, and debt sales to collect non-tax
delinquent debt. In addition, the DCIA requires Federal agencies to reduce losses arising from debt
management activities by requiring proper screening of potential borrowers, aggressive monitoring of
all accounts, and sharing of information among other Federal agencies.

ED functions as a debt collection center to service its own student financial assistance loan debt. ED's
authority to function as a debt collection center was granted by Treasury, for a three-year period to be
reevaluated upon expiration in the year 2001. Treasury acknowledged that certain Federal debts have
unique servicing requirements and that it may not be cost effective to transfer the debt to FMS for
collection. Treasury approved ED's waiver request for the following reasons:1

          8Debt collections activities for the Office of Postsecondary Education (OPE) are
              centralized in DCS;
          8DCS has demonstrated its expertise in collecting student loan debt;
          8DCS utilizes the full range of debt collection tools outlined in the DCIA;
          8Student loan debt is unique in that it is not subject to the statute of limitations; and
          8The likelihood of collection increases as the debt ages.




1
  Waiver was granted on November 2, 1998. The decision to approve the waiver request was based on results of an initial
evaluation conducted by Financial Management Service (FMS) staff and a subsequent review by the Application Review
Committee. The Committee, comprised of officials from Departmental offices at Treasury and the U.S. Department of
Justice, analyzed the evaluators' findings and concurred with the recommendation.


                                                       Page 3
Review of Non-Tax Delinquent Debt
 at the U.S. Department of Education                                                                   ED-OIG/A17-90001


Through the Report on Receivables Due from the Public (Standard Form 220-9)2, a government-wide
report used to capture credit and debt management information, ED reported the following information
on total receivables, total delinquencies, total collections, and total write-off's to Treasury for Fiscal
Years 1997 and 1998.

                                           FY 97                 FY 98           Dollar Change         % Change
         Total Receivables             $44,783,647,878      $59,375,760,848      $14,592,112,970          33%

         Total Delinquencies           $22,035,702,100      $28,271,919,976      $ 6,236,217,876          28%

         Total Collections             $ 2,561,535,527      $ 3,412,724,829      $    851,189,302         33%

         Total Write-Off''s            $   352,107,047      $   588,280,008      $    236,172,961         67%


Appendix 2 reflects a break down of the total figures for Fiscal Year 1998 non-tax receivables,
delinquencies, collections, and write-offs by program.




    OBJECTIVES, SCOPE AND METHODOLOGY
The objective of the President's Council on Integrity and Efficiency (PCIE) government-wide review
of non-tax delinquent debt were to:

          4Determine the amount of non-tax delinquent debt (existence);
          4Assess the collectibility of the non-tax delinquent debt (valuation); and
          4Assess the debt management activities (portfolio management).

This review did not address the objectives on the existence and valuation of the non-tax delinquent debt.
 To accomplish the first and second objectives, we planned to rely on audit work performed by external
auditors conducting the Fiscal Year 1998 Financial Statement Audit. However, the preparation and
audit of the Fiscal Year 1998 Financial Statements is not complete. The external auditors will be
reporting out in that audit product on any issues that may arise on the first and second objectives listed
above. Upon completion of the financial audit and issuance of the final audit report, we will provide a
2
 The Report on Receivables Due from the Public covers the status of outstanding receivables including unpaid principal on
direct loans and defaulted guaranteed loans acquired by the government, changes for the period, use of debt collection tools,
adjudication activity, and other information.




                                                          Page 4
Review of Non-Tax Delinquent Debt
 at the U.S. Department of Education                                                  ED-OIG/A17-90001


copy to Treasury. Therefore, the scope of this review focuses on the third objective, debt management
activities.

To accomplish the third objective, we conducted interviews with managers and staff responsible for
administering debt collection and portfolio management activities at ED. Our primary focus was on
DCS with a limited review of guaranty agencies, the Office of the Chief Financial Officer, and the direct
loan servicer. In addition, we met with Treasury personnel responsible for oversight of the PCIE
sponsored review and the implementation of the DCIA.

Specifically, we:

          4Compared agency performance to the requirements of the DCIA and implementing
              regulations;
          4Traced delinquent debt accounts receivable balances to supporting documentation;
          4Evaluated the aging schedules and collectibility of delinquent debt accounts receivable;
          4Examined procedures used to certify the existence of the delinquent debt;
          4Examined procedures used to document and classify delinquent debt; and
          4Examined procedures used to resolve delinquent debt returned by Treasury to ED as not
             eligible for collection.

Reports prepared by ED and the information extracted from its systems were the basis for many
conclusions and much of the data included in the information report. Government Auditing
Standards (GAS) require that auditors conduct reliability assessments of computerized records and
reports when the information contained in them is the basis for review conclusions. We did not
conduct a risk assessment or data testing as required by the standards. We concluded that the level
of assessment work and testing required by GAS would require significant resources and that a
scope limitation would not compromise the value of the information report.

The review covered Fiscal Year 1998 (October 1, 1997 through September 30, 1998). Fieldwork
was conducted from December 1998 through April 1999. Except as noted above, the review was
conducted in accordance with generally accepted government auditing standards.




                                                Page 5
Review of Non-Tax Delinquent Debt
 at the U.S. Department of Education                                                    ED-OIG/A17-90001




                                       REVIEW RESULTS
The results of our review disclosed that ED has worked diligently in meeting the intent of the DCIA.
The following is a presentation of what our work revealed.



                                       Debt Management Activities


ED uses a wide variety of collection tools to collect on its own non-tax delinquent debt. Delinquent
debt collected by effort and tracked through DCS's Debt Collection Management System for Fiscal Year
1998 totaled $713,398,260. Of the total amount collected for Fiscal Year 1998 in-house collection
efforts accounted for $451,820,542 while collection agencies efforts accounted for $261,577,718. For
Fiscal Year 1998, the Federal Family Education Loan Program (FFELP) loan payments from borrowers
paid on defaulted loans at the guaranty agencies and on U.S. Department of Treasury/Internal Revenue
Service (IRS) offsets that are guaranty agency held loans totaled $1.4 billion. Of all the collection tools
employed the Treasury Offset Program resulted in the most dollars collected.

The DCIA authorizes two key tools for collection of referred delinquent debt: government-wide cross-
servicing and centralized administrative offset.

Cross-Servicing

The first collection tool, government-wide cross-servicing, requires that delinquent debts over 180 days
be referred to Treasury for centralized collection efforts. This provision also permits the voluntary
transfer of debts less than 180 days delinquent. FMS is managing this process and utilizes a variety of
collection tools and strategies including private collection agencies, demand letters, administrative offset
and negotiated repayment agreements.

A specific class of debt may be excluded for government-wide cross-servicing by the Secretary of the
Treasury at the request of the head of an executive agency, as is the case at ED. In addition, debts may
be excluded from transfer when any one of the five instances below exist:

          4debts are in litigation or foreclosure;
          4debts that will be disposed of under an asset sales program within one year after becoming
             eligible for sale, or later than one year if consistent with an asset sales program and a
             schedule established by the agency and approved by the Director of the Office of
             Management and Budget (OMB);
          4debts that have been referred to a private collection contractor for collection for a period of


                                                   Page 6
Review of Non-Tax Delinquent Debt
 at the U.S. Department of Education                                                      ED-OIG/A17-90001


             time determined by Treasury;
          4debts that have been referred to a Debt Collection Center with the consent of Treasury and
             for a period of time determined by Treasury; and
          4debts that will be collected under internal offset if such offset is sufficient to collect the debt
              within three years after the debt is first delinquent.

ED voluntarily refers institutional liability debt to Treasury for collection through cross-servicing. On
January 15, 1997, ED (Office of the Chief Financial Officer) entered into an agreement with Treasury
for referring institutional liability debt for cross-servicing. However, in the agreement ED reserved the
right to retain or recall certain exceptional delinquent or sensitive cases. In addition, ED reserved the
right to assign individual non-Title IV delinquent debts to DCS for internal servicing. As of August 31,
1998, ED referred $770 million to Treasury. For Fiscal Year 1998, Treasury collected approximately
$184,000 for ED through cross-servicing.

ED's Title IV Student Financial Assistance Programs and institutional debts under the College Housing
Loans, the Higher Education Facilities Loans and the College Housing and Academic Facilities Loan
programs are exempt from and therefore do not participate in Treasury's cross-servicing program.

Treasury Offset

Through the Offset Program, Treasury has developed a process to match Federal payments against debts
owed to the Government. When a match occurs, the payment is offset up to the amount of the debt,
less a pre-determined fee to cover operational expenses. As of August 31, 1998, ED referred $13.4
billion to Treasury with a balance of $2.7 billion that was not referred. The balance that was not
referred to Treasury was being worked for due process afforded to delinquent entities.

In cooperation with the IRS, ED began a program in 1985 to collect defaulted student loans by offset
against Federal income tax refunds (the first offsets were performed in 1986). Of all the collection tools
employed for Fiscal Year 1998, the Treasury Offset Program resulted in the most dollars collected.

Other Collection Initiatives

The Emergency Unemployment Compensation Act of 1991 added a new provision to the Higher
Education Act of 1965. The provision authorized ED to seek recovery of outstanding debts through
the offset of ten percent of the disposable pay of employed individuals who have defaulted on their
student loan obligations. This law created authorization to garnish wages without a requirement for
obtainment of a legal judgement or court order. ED began implementing the authority given to them
on a pilot basis in fiscal year 1993. Collections through wage garnishment totaled $44 million for Fiscal
Year 1998.

On August 22, 1996, the Personal Responsibility and Work Opportunity Reconciliation Act of 1996 was
passed requiring employers to report newly hired employees to the State Directory of New Hires.



                                                    Page 7
Review of Non-Tax Delinquent Debt
 at the U.S. Department of Education                                                                   ED-OIG/A17-90001


States are then required to report the new hires, quarterly wages, and unemployment income benefits
to the National Directory of New Hires (NDNH). Every social security number received by the NDNH
will be processed through Social Security Administration's social security number verification process.
The successful implementation of this legislation, beginning October 1, 1997, would have a long-term
impact upon federal debt collections. Obtaining a defaulted student loan borrower's employer
information is critical to the success of the administrative wage garnishment collection tool. ED assisted
the U.S. Department of Health and Human Services (HHS) in drafting legislative language to require
data matches between the National Directory of New Hires and student loan defaulter information and
authorize necessary disclosures of National Directory of New Hires information. On May 19, 1999, the
Director of OMB signed and transmitted to Congress a legislative proposal containing this language.

Credit bureau reporting was in place at ED prior to the enactment of the DCIA. The Debt Collection
Act of 1982, as amended, gave federal agencies the authority to report non-tax delinquent consumer
debts to credit bureaus. Once all due process procedures have been observed and a debtor is given sixty
days to respond to a notification of the intention of referral to credit repositories, DCS reports debt to
the appropriate credit repositories on a monthly basis.

Over ten years ago, DCS shifted the bulk of the collection effort from federal employees to private
collection agencies. As a result, DCS' federal employee staffing fell from 1200 employees to just over
200 employees currently employed. Presently DCS has eighteen contingency fee contracts with private
collection agencies. Through their contract with ED, collection agencies are entitled to a certain
percentage of the dollar amount that they collect on defaulted loans. The private collection agencies
employ around 1000 individuals dedicated to collecting defaulted loans assigned to ED. For Fiscal Year
1998 the dollars collected through the efforts of collection agencies totaled almost $262 million.
Reported delinquent debt collected by effort and tracked through DCS's Debt Collection Management
System, for Fiscal Year 1998, is summarized below.


                                       Delinquent Debt Collected by Effort 3
            Collection Effort                                                                  ED Collections
            Treasury Offset (ED held accounts)                                                   $ 273,895,489
            Regular (Voluntary collections)                                                        101,121,631
            Federal Direct Student Loan Program Consolidations 4                                    30,346,695
            Wage Garnishment                                                                        17,705,186
            Department of Justice Litigation                                                        12,848,115
            Federal Salary Offset 5                                                                   7,472,214



3
  Information was obtained from DCS's Debt Collection Management System. This system maintains loan level detail on
defaulted loans assigned to ED. Figures cited in the table above and throughout the report are gross collection figures. Even
though reported as delinquent some collections represent loans that are current and are in repayment.
4
 The Higher Education Act provides for a loan consolidation program under both FFELP and the Direct Loan Program. Loan
consolidations simplify loan repayment be combining several types of Federal education loans (that may have different terms
and repayment schedules or may have been made by different lenders) into one new loan.
5
  Annual matches are conducted with the Office of Personnel and Management and the U.S. Postal Service for all current
and retired Federal employees.
                                                          Page 8
Review of Non-Tax Delinquent Debt
 at the U.S. Department of Education                                                                  ED-OIG/A17-90001


            Loan Rehabilitation 6                                                                     6,397,668
            FMS Collections (Financial Management Service/Treasury)                                   1,302,694
            Federal Family Education Loan Program Consolidations 4                                      730,850
            TOTAL ED COLLECTIONS                                                                   $451,820,542

            Collection Effort                                                               Collection Agencies
            Regular                                                                               $ 95,174,861
            Federal Direct Student Loan Program Consolidations 4                                     89,874,192
            Federal Family Education Loan Program Consolidations 4                                   47,619,685
            Wage Garnishment                                                                         26,362,920
            Loan Rehabilitation 6                                                                     2,546,060
            TOTAL COLLECTION AGENCIES                                                             $261,577,718

            TOTAL COLLECTIONS (FY 98)                                                              $713,398,260

For Fiscal Year 1998, FFELP unassigned loan payments from borrowers paid on defaulted loans at the
guaranty agencies and on IRS offsets that are guaranty agency held loans totaled $1.4 billion.

ED's student loans are unsecured. However, before a loan is disbursed a student must sign a promissory
note; a legally binding contract between the borrower and the lender, which contains the terms and
conditions of the loan, including how and when the loan must be repaid.

Section 3 of the Higher Education Technical Amendments of 1991 (Public Law 102-26), eliminated any
statute of limitations that applied to enforcement actions to collect student loans made or insured under
Title IV of the Higher Education Amendments. In addition, with the exception of ED selling individual
loans back to a lender after a loan has been rehabilitated, ED does not sell its debt. ED hired a financial
advisor to evaluate DCS' present collection strategies and propose unique collection and disposition
strategies. The financial advisor recently determined a loan sale wound not be in the best interest of the
Government. A sophisticated lease arrangement where there would be a combination of the public
sector collection tools and the private sector's management expertise was recommended.

In a joint effort ED and Treasury recently kicked-off a "1800IWILLPAY" campaign to reach out to
student loan borrowers to increase awareness of student loan repayment options for students who are
in default or may be near default and to acquaint them with the DCIA and its impact on them.




6
  After 12 consecutive payments have been made on a formerly defaulted loan, it is eligible to become a rehabilitation loan.
Once a loan becomes rehabilitated, it becomes a new loan. A borrower again becomes eligible for participation in Title IV
programs.
                                                         Page 9
Review of Non-Tax Delinquent Debt
 at the U.S. Department of Education                                                                  ED-OIG/A17-90001




                               Documenting and Classifying Delinquent Debt


For Fiscal Year 1998, ED reported non-tax delinquencies totaling $28.3 billion. Loans made through
the FFELP and the William D. Ford Federal Direct Loan Program (Direct Loan Program) accounted
for $27.4 billion or 97 percent of the total reported non-tax delinquencies. Appendix 3 provides a
breakdown of the total delinquencies by program at the end of Fiscal Year 1998.

FFELP, regulated by Title 34 of the Code of Federal Regulations (CFR) Part 682, is a guaranteed loan
program and includes the Federal Stafford Loans, subsidized and unsubsidized; Federal Parent Loans
for Undergraduate Students (PLUS); Federal Supplemental Loans to Students (SLS)7; and Federal
Consolidation Loans. FFELP is the largest postsecondary education guaranteed loan program of the
Federal government and its primary purpose is to increase postsecondary educational opportunities for
eligible students.

FFELP loans are made by private lenders, guaranteed by a state or private nonprofit guaranty agency,
and insured by the federal government. Unassigned loan receivables represent that portion of the
defaulted portfolio in which loans are maintained and serviced by a guaranty agency. Assigned loan
receivables represent that portion of the defaulted loan portfolio which has been transferred from the
guaranty agency's to ED's DCS.

Student loans, under FFELP, are considered to be delinquent one day after a payment has been missed
and default typically starts after 180 days for a loan repayable in monthly installments, and for 240 days
for a loan repayable in less frequent installments. As part of the Higher Education Amendments of 1998
the statutory definition of default was changed. FFELP loans that are effected are those for which the
first date of delinquency occurs on or after the date of enactment of the Higher Education Amendments
of 1998 (October 7, 1998). The definition of "default" includes only such defaults as have existed for
270 days in the case of a loan which is repayable in monthly installments, or 330 days in the case of a
loan which is repayable in less frequent installments. For loans on which ED itself is trying to collect,
defaulted cases are not received until both lenders and the guaranty agencies have attempted collection,
a process which typically lasts at least 4 years after the debt became delinquent.

Under the Direct Loan Program, regulated by 34 CFR Part 685, there are only three entities: the
student, the school and ED. There are four types of Direct Loans: Federal Direct Stafford/Ford Loans
(Direct Subsidized Loans); Federal Direct Unsubsidized Stafford/Ford Loans (Direct Unsubsidized
Loans); Federal Direct PLUS Loans; and Federal Direct Consolidation Loans. The school determines
how much a student will need to borrow and electronically transmits all the required loan information
to ED. When a loan is approved, the student signs a promissory note and the school credits the student's
tuition account.


7
    No new loans were originated after July 1, 1994. The authority for this program ended July 1, 1994.
                                                          Page 10
Review of Non-Tax Delinquent Debt
 at the U.S. Department of Education                                                   ED-OIG/A17-90001


Prior to the Higher Education Amendments of 1998 default for direct loans occurred if the borrower
failed to repay the loan and the condition persisted for 180 days. Defaulted loans would be transferred
to DCS after 270 days. Through the enactment of the Higher Education Amendments of 1998, Direct
Loans are considered defaulted at the 270th day and transferred to DCS after 360 days.



                                             Accounts Receivable
                     Existence of Accounts Receivable, Collectiblity, and Revenue Recognition



To accomplish the objectives for the accounts receivable portion of our review we planned to rely on
audit work performed by external auditors conducting the Fiscal Year 1998 Financial Statement Audit.
However, the preparation and audit of the Fiscal Year 1998 Financial Statements is not complete.

The external auditors will primarily focus on loans receivable under the Direct Loan, Federal Family
Education Loan, and Facilities Loans Programs. Detailed audit work will be performed in two areas
that relate to loans receivable:

          w          Principal and interest receivable.
          w          Collectibility of loans receivable.

For loans under the Direct Loan Program the external auditors plan to select a sample of loans
receivable and review promissory notes; origination and disbursement records; and records of borrowers
payments to test the outstanding principal balance of September 30, 1998. In addition, for each of the
loans selected the interest receivable balances will be tested by verification that the interest rate used
complies with applicable laws and regulations, and recalculation of accrued interest as of September 30,
1998.

To test assigned loans receivable balances under the FFELP a comparison will be made of the
September 30, 1997 audited balances to the September 30, 1998 beginning balance. The major
components of Fiscal Year 1998 activity that will be tested are, new assignments, write-off's, and
borrower payments.

The external auditors plan to confirm unassigned defaulted FFELP loans receivable principal and interest
balances with all guaranty agencies as of September 30, 1998. A comparison will be made of the
confirmed amount with amounts previously reported by the guaranty agencies and amounts recorded
in ED's general ledger.

A similar approach used in testing the assigned FFELP loans receivable will be used in testing Facilities
Loans receivables. Supporting documentation, such as borrower payments, will be reviewed for
significant current year activity.

Effective July 15, 1993, the Statement of Federal Financial Accounting Standard No. 2 required that
the net present value of subsidy costs (interest subsidies, defaults, fee offsets, and other cash flows)

                                                      Page 11
Review of Non-Tax Delinquent Debt
 at the U.S. Department of Education                                                  ED-OIG/A17-90001


associated with direct loans and loan guarantees for a given year be recognized as an expense in the year
the loans are disbursed. In addition, re-estimates of prior year cohorts are done every year and the
resulting difference from prior estimates is included as a subsidy expense. Cumulative estimates of
subsidy costs associated with all outstanding loans are used to develop allowances for direct loans
receivable and defaulted guaranteed loans and a liability for loan guarantees.

For the compliance with the Statement of Federal Financial Accounting Statement No. 2 the external
auditors plan to assess: ED's computer-based cash flow models; significant assumptions used in
calculating the liability for loan guarantees; and the Direct Loan Program and FFELP allowances.

Upon completion of the financial audit and issuance of the final audit report, we will provide a copy to
Treasury. At this time, we are not in a position to address the existence, collectibility, or revenue
recognition.




                                                Page 12
Review of Non-Tax Delinquent Debt
 at the U.S. Department of Education                                            ED-OIG/A17-90001




                                        ED'S REPLY
ED commented on our draft report in a memorandum dated August 2, 1999. A copy of the complete
text of the response is contained in Appendix 5.



                                       OIG RESPONSE
ED's response to our draft report does not warrant any changes. We look forward to working with ED
in the future.




                                             Page 13
Review of Non-Tax Delinquent Debt
 at the U.S. Department of Education                                                   ED-OIG/A17-90001


                                                                                              Appendix 1


                                       DEBT COLLECTION SERVICE


ED functions as a debt collection center to service its own student financial assistance loan debt. ED's
authority to function as a debt collection center was granted by Treasury, for a three year period to be
reevaluated upon expiration in the year 2001.

Debt collection activities are centralized at ED. DCS, a component within the Office of Student
Financial Assistance Programs (OSFAP), provides debt management services for the defaulted student
loan portfolio assigned to ED. Unassigned defaulted loans are managed by thirty-six guaranty agencies
located throughout the United States.

The mission of DCS is to provide quality customer service and sound credit management to maximize
net revenue on collections. To carry out its mission DCS utilizes tools outlined in DCIA which include:
Treasury and Internal Revenue Offset, private collection agencies, credit bureau referrals, litigation,
wage garnishment, phone calls and letters. DCS' primary customers are the taxpayers and student
borrowers. DCS maintains a philosophy that taxpayers are entitled to an effective and efficient
collection program and borrowers are entitled to maintain their dignity as they repay their debts.

Figure 1 depicts the organizational structure of DCS. DCS is headquartered in Washington, DC, with
regional servicing offices located in Atlanta, Georgia; Chicago, Illinois; and San Francisco, California.
DCS regional employees oversee contractor operations and perform the following governmental
functions: dispute resolution, hearings, claims adjudication, system design/development, and handle
specialty collection activities. To facilitate discharging it responsibilities, DCS makes use of various
contractors, including the use of eighteen private collection agencies through performance-based
contracts, a public inquiry contractor, a central repository for collections, and a computer processing
company.

The Washington Service Center provides oversight of all collection related activities, including oversight
of and coordination between the regional servicing offices, contractors and vendors. This center is
responsible for developing collection policies and plans, as well as program and operating budgets, and
interacts with vendors and other service providers to ensure that the Debt Management and Collection
System remains state-of-the-art. Most all national issues and interfaces with other Federal and non-
federal agencies are handled here.

Currently, collection support activities are managed through three major branches: Loan Servicing,
Contract Services and Hearings.

Each of the three regional service centers maintain a Loan Servicing branch (LS). LS resolves disputes
between the borrowers and the Federal government and ED's vendors. In addition, LS provides a



                                                Page 14
Review of Non-Tax Delinquent Debt
 at the U.S. Department of Education                                                                                          ED-OIG/A17-90001




                                                    Debt Collection Service
                                                     Organization Chart


                                                               Office of the Director


               Washington                   Atlanta                                   Chicago                      San Francisco
              Service Center             Service Center                            Service Center                  Service Center


                Systems & Contracts            Loan Servicing                              Loan Servicing                Loan Servicing


                     Program                  Contract Services:                         Contract Services:            Contract Services:
                    Management                 Collection Agencies                           Public Inquiry,              Closed School
                                                                                        Loan Processing Center &
                                                                                           Guaranty Agencies




                                                   Hearings                                   Hearings                     Hearings


                                       Administrative Wage Garnishment                  Collection Campaigns               Litigation



 Figure 1


number of services such as, adjusting loan balances, loan consolidation and loan rehabilitation services,
credit reporting, and borrower credit counseling.

The duties of the Contract Services branch differ in each of the regional service centers. The Atlanta
Contract Services branch handles the day-to-day oversight of the private collection agency contracts.
The Chicago Contract Services branch oversees the Public Inquiry Contractor, the Student Loan
Processing Center, and the National Payment Center. The San Francisco Contract Services branch
provides oversight of vendors processing closed school and bankruptcy discharges.

The Hearings branches in each of the regional service centers ensure that the rights of due process are
afforded to borrowers, especially before involuntary payment methods are employed. Student loan
borrowers have a right to a hearing by a Federal employee prior to Treasury offset, wage garnishment,
credit bureau reporting or Federal Salary offset.

The Atlanta Service Center provides consultative assistance to employers required by law to comply
with ED's garnishment orders. In an environment where collection agencies employ the vast majority
of collection staff, a small group of Federal employees from the Chicago Service Center, have been
tasked to establish benchmarks for the collection agencies to achieve or exceed and to develop
innovative recovery campaigns. DCS' San Francisco litigation branch is solely responsible for the
litigation process and oversees the preparation of litigation packages submitted to the Department of
Justice and/or their representatives. The bulk of the litigation packages are prepared by DCS' private
collection agencies and reviewed by the litigation branch in San Francisco.


                                                                     Page 15
Review of Non-Tax Delinquent Debt
 at the U.S. Department of Education                                                                    ED-OIG/A17-90001


                                                                                                                Appendix 2

     NON-TAX RECEIVABLES, DELINQUENCIES, COLLECTIONS, AND WRITE-OFFs
                               BY PROGRAM
                FOR FISCAL YEAR ENDING SEPTEMBER 30, 1998

                                                      Total                 Total               Total               Total
               Program                              Receivables         Delinquencies         Collections         Write-Offs
Federal Family Education Loans
(Unassigned) 1                                    $17,288,684,275      $17,249,468,154      $1,375,106,410       $331,774,489
Federal Family Education Loans
(Assigned) 1                                        6,466,254,625        6,466,254,625         519,768,911          90,980,893

Federal Direct Loans 2                            34,196,450,6453        3,711,030,206       1,349,564,762          28,283,949

Departmental Management (non-OPE) 4                   709,130,816          705,839,369           55,649,507       129,622,2915

Federal Student Loan Insurance Fund                   136,225,034          136,225,034           43,827,677          7,192,520

College Housing Loans                                 386,742,854             2,668,271          43,653,464            209,399

Higher Education Facilities Loans                       36,119,591              237,348           6,886,934            216,467
College Housing & Academic Facilities
Loans                                                 156,153,008               196,969          18,267,164                    0

TOTAL NON-TAX (FY 98)                             $59,375,760,848      $28,271,919,976      $3,412,724,829       $588,280,008




1
  Under FFELP when the guaranty agencies have exhausted their collection efforts or a loan meets specific ED criteria (34 CFR
§ 682.409) it is permanently assigned to ED. The guaranty agencies assign all rights and title to the loans. Once loans of this
type are transferred to ED and processed, an adjusting entry is made in the general ledger to reduce the unassigned loans
receivable and increase the assigned loans receivable. As of September 30, 1998, ED reported $110 billion in loans outstanding
under FFELP.

2
    As of September 30, 1998, ED reported approximately $33 billion in loans outstanding under the Direct Loan Program.

3
  Approximately $1.4 billion of the total receivables account for dollars advanced to schools. For financial statement purposes
the advance account is treated similar to a loan receivable.

4
    Includes amounts from the Pell and Impact Aid Programs and the result of ED's post audit efforts.

5
    Total write-offs consist of $117,958 from the Pell Program and $129,504,333 from ED's post audit efforts.

Source: Figures reported by ED to Treasury through the Report on Receivables Due from the Public for Fiscal Year 1998.
Figures will be audited as part of ED's Fiscal Year 1998 Financial Audit. Figures include principal and interest.




                                                          Page 16
Review of Non-Tax Delinquent Debt
 at the U.S. Department of Education                                                                    ED-OIG/A17-90001


                                                                                                                Appendix 3


                             NON-TAX DELINQUENT DEBT BY PROGRAM
                            FOR FISCAL YEAR ENDING SEPTEMBER 30, 1998



                                                                    Total                            Total
                   Program                                      Delinquencies            Delinquent Debt over 180 Days
Federal Family Education Loans
(Unassigned) 1                                                    $17,249,468,154                          $17,249,468,154
Federal Family Education Loans
(Assigned) 1                                                        6,466,254,625                             6,466,254,625

Federal Direct Loans 2                                              3,711,030,206                              479,025,427

    Subtotal (FFELP and Direct Loans)                              27,426,752,985                            24,194,748,206

Departmental Management (non-OPE) 3                                   705,839,369                               586,165,611

Federal Student Loan Insurance Fund                                   136,225,034                               136,225,034

College Housing Loans                                                   2,668, 271                                 2,177,379

Higher Education Facilities Loans                                          237,348                                   229,000

College Housing & Academic Facilities Loans                                196,969                                   125,740

TOTAL NON-TAX (FY 98)                                             $28,271,919,976                          $24,919,670,970




1
  Under FFELP when the guaranty agencies have exhausted their collection efforts or a loan meets specific ED criteria (34 CFR
§ 682.409) it is permanently assigned to ED. The guaranty agencies assign all rights and title to the loans. Once loans of this
type are transferred to ED and processed, an adjusting entry is made in the general ledger to reduce the unassigned loans
receivable and increase the assigned loans receivable. As of September 30, 1998, ED reported $110 billion in loans outstanding
under FFELP.

2
    As of September 30, 1998, ED reported approximately $33 billion in loans outstanding under the Direct Loan program.

3
    Includes amounts from the Pell and Impact Aid Programs and the result of ED's post audit efforts.

Source: Figures reported by ED to Treasury through the Report on Receivables Due from the Public for Fiscal Year 1998.
Figures will be audited as part of ED's Fiscal Year 1998 Financial Audit. Figures include principal and interest.




                                                          Page 17
Review of Non-Tax Delinquent Debt
 at the U.S. Department of Education                                                    ED-OIG/A17-90001


                                                                                               Appendix 4




                                                List of Acronyms

Acronym                           Definition
CFR                               Code of Federal Regulations
DCIA                              Debt Collection Improvement Act of 1996
DCS                               Debt Collection Service in ED
Direct Loan Program               William D. Ford Federal Direct Loan Program
ED                                U.S. Department of Education
FFELP                             Federal Family Education Loan Program
FMS                               U.S. Department of Treasury/Financial Management Service
HHS                               U.S. Department of Health and Human Services
IRS                               U.S. Department of Treasury/Internal Revenue Service
LSB                               Loan Servicing Branch in ED
NDNH                              National Directory of New Hires
OIG                               Office of Inspector General in ED
OMB                               Office of Management and Budget
OPE                               Office of Postsecondary Education in ED
OSFAP                             Office of Student Financial Assistance Programs in ED
PCIE                              President’s Council on Integrity and Efficiency
PLUS                              Federal Parent Loans for Undergraduate Students
SLS                               Federal Supplemental Loans to Students
Treasury                          U.S. Department of Treasury




                                                      Page 18
Review of Non-Tax Delinquent Debt
 at the U.S. Department of Education             ED-OIG/A17-90001


                                                        Appendix 5




                                       Page 19
Review of Non-Tax Delinquent Debt
 at the U.S. Department of Education                                            ED-OIG/A17-90001


                                       REPORT DISTRIBUTION SCHEDULE
                                              ED-OIG/A17-90001



                                                                                     No. of
Action Officials                                                                     Copies

          Mr. Greg Woods                                                                1
          Chief Operating Officer
          Office of Student Financial Assistance
          ROB-3, Room 4004
          7th & D Streets
          Washington, D.C. 20202

Other ED Offices

Office of the Deputy Secretary
        Acting Deputy Secretary                                                         1

Office of Student Financial Assistance Programs
        Acting Director, Debt Collection Service                                        3
        Director, Guarantor and Lender Oversight                                        3
        Director, Accounting and Financial Management Service                           3
        Audit Liaison Official                                                          1

Office of the Chief Financial Officer
        Acting Chief Financial Officer                                          3
        Supervisor, Post Audit Operations                                               1
        Audit Liaison Official                                                          1

Office of Public Affairs                                                                1

Office of Inspector General
        Inspector General                                                               1
        Deputy Inspector General                                                        1
        Congressional Liaison                                                           1
        Assistant Inspector General for Audit                                           1
        Deputy Assistant Inspector General for Audit                                    1
        Assistant Inspector General for Operations - Eastern Area                       1
        Assistant Inspector General for Operations - Western Area                       1
        Director, Student Financial Assistance Advisory & Assistance Programs           1
        Director, Planning, Analysis & Management Services                              2



                                                   Page 20
